TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          The Internal Revenue Service
                      Adequately Prepared for and Responded
                              to the Austin Incident



                                        September 21, 2011

                                Reference Number: 2011-10-098




   This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
    and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:

1 = Tax Return/Return Information       3(d) = Identifying Information of an Individual or Individuals



Phone Number | 202-622-6500
Email Address | TIGTACommunications@tigta.treas.gov
Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


THE INTERNAL REVENUE SERVICE                          Government property, and timely resume
ADEQUATELY PREPARED FOR AND                           business operations following the Austin
RESPONDED TO THE AUSTIN INCIDENT                      incident. The IRS timely provided extensive
                                                      personnel services to assess and support
                                                      affected employee needs, identified temporary
Highlights                                            office space for the affected employees,
                                                      awarded several procurements to support the
                                                      recovery effort in an expedited time period, and
Final Report issued on
                                                      provided the furnishings and equipment needed
September 21, 2011                                    to resume work within 18 calendar days of the
                                                      incident.
Highlights of Reference Number: 2011-10-098
to the Internal Revenue Service Chief,                However, our audit determined that emergency
Agency-Wide Shared Services.                          planning for the Echelon I building was not
                                                      complete, as none of the business resumption
IMPACT ON TAXPAYERS                                   plans for the eight business units located at the
On February 18, 2010, a single-engine airplane        Echelon I building included all of the required
was intentionally flown into the Echelon I            elements. In addition, the salvage contract used
building in Austin, Texas. The Internal Revenue       to recover documents, including taxpayer data at
Service (IRS) adequately prepared for and took        the incident site, did not include all of the
the necessary actions to respond to and recover       required security provisions and did not contain
from this incident, which ensured that the IRS        an official designation appointing a Contracting
timely resumed normal business operations. An         Officer’s Technical Representative. However,
extended disruption to IRS facilities could affect    these issues did not have a material impact on
key processes such as assessing and collecting        the response to the Austin incident and, taken
taxes, processing tax returns and refunds, and        as a whole, the IRS preparation and response
responding to taxpayer inquiries.                     ensured that the effect of the Austin incident on
                                                      IRS employees and tax administration was
WHY TIGTA DID THE AUDIT                               minimized.
This audit was initiated because effective            WHAT TIGTA RECOMMENDED
continuity planning and emergency
preparedness can facilitate the IRS’s ability to      TIGTA recommended that the Chief,
prepare for, respond to, and recover from             Agency-Wide Shared Services: 1) ensure that
emergencies. These efforts include providing          lessons learned relative to the business
personnel services to support employee needs          resumption plans are applied to the
and restoring critical functions. The audit was       development of the new continuity plans and
requested by the IRS Chief, Agency-Wide               2) include on the lessons learned document and
Shared Services. The overall objective was to         the Incident Management Plan template the
determine whether the IRS was adequately              provisions for emergency procurements.
prepared for and took the necessary actions to        IRS officials agreed with our recommendations
protect IRS employees, taxpayer data, and             and stated that the IRS has distributed
Federal Government property and to resume             supplemental guidance on the development of
normal business operations following the              continuity plans, initiated annual quality
airplane crash into the Austin, Texas, Echelon I      assurance reviews of these plans, and plans to
building (hereafter referred to as the Austin         apply the lessons learned in the development of
incident).                                            the new continuity plans. The IRS also plans to
WHAT TIGTA FOUND                                      update the lessons learned document and the
                                                      Incident Management Plan template to reflect
The IRS adequately prepared for and took the          that emergency procurements are required to
necessary actions to evacuate and protect IRS         comply with the Federal Acquisition Regulation
employees, secure taxpayer data and Federal           and other procurement policies and procedures.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           September 21, 2011


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Internal Revenue Service Adequately
                              Prepared for and Responded to the Austin Incident
                              (Audit # 201110006)

 This report presents the results of our review to determine whether the Internal Revenue Service
 was adequately prepared for and took the necessary actions to protect Internal Revenue Service
 employees, taxpayer data, and Federal Government property and to resume normal business
 operations following the airplane crash into the Austin, Texas, Echelon I building. This review
 is included in our Fiscal Year 2011 Annual Audit Plan and addresses the major management
 challenge of Security.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                     The Internal Revenue Service Adequately
                                 Prepared for and Responded to the Austin Incident




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Effectively Prepared for
          and Responded to the Austin Incident .......................................................... Page 4
          Business Resumption Plans for the Austin Echelon I
          Building Did Not Include All the Required Elements .................................. Page 10
                    Recommendation 1:........................................................ Page 11

          Actions Are Needed to Better Facilitate Contract
          Development and Administration ................................................................. Page 11
                    Recommendation 2:........................................................ Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Timeline of Incident Response ............................................ Page 19
          Appendix V – Key Lessons Learned From the Incident Response .............. Page 21
          Appendix VI – Management’s Response to the Draft Report ...................... Page 24
           The Internal Revenue Service Adequately
       Prepared for and Responded to the Austin Incident




                Abbreviations

BRP       Business Resumption Plan
COTR      Contracting Officer’s Technical Representative
GSA       General Services Administration
IMP       Incident Management Plan
IMT       Incident Management Team
IRS       Internal Revenue Service
OEP       Occupant Emergency Plan
SCR       Senior Commissioner’s Representative
                                 The Internal Revenue Service Adequately
                             Prepared for and Responded to the Austin Incident




                                             Background

The Internal Revenue Service (IRS) is responsible for helping America’s taxpayers to understand
and meet their tax responsibilities and for the enforcement of the Nations’ tax laws as enacted by
Congress. The IRS collects the taxes1 that fund the Federal budget, supporting public programs
(e.g., human services, national defense, Social Security and Medicare, and education) and the
payment of the national debt. The IRS Commissioner describes the IRS as an agency of
professionals working to serve the hardworking taxpayers of this country: processing returns,
sending out refunds, answering questions on the phone, and trying to help people navigate a
complicated tax system.2
IRS employees provide Americans with a valuable service; however, the dedicated men and
women of the IRS are often under-appreciated public servants and increasingly have become the
targets of violent threats.3 On February 18, 2010, ***1***3(d)********* intentionally flew an
airplane into an IRS building in Austin, Texas, killing himself and an IRS employee and injuring
13 others (hereafter referred to as the Austin incident).4 The contents of the building were almost
a total loss, and the damage to the building structure was significant enough to require the IRS to
immediately find new space for the affected employees.
To facilitate the performance of critical functions in emergency situations, the Federal
Government established policies that provide direction to Federal agencies for continuity
planning and programs. In May 2007, National Security Presidential Directive-515 was issued
by the President to establish and maintain a comprehensive and effective national continuity
capability in order to ensure the continuing performance of national essential functions under all
conditions. To provide the operational guidance to implement this policy, the Department of

1
  The IRS is a bureau of the Department of the Treasury and one of the world’s most efficient tax administrators. In
Fiscal Year 2010, the IRS collected more than $2.3 trillion in revenue and processed more than 230 million tax
returns.
2
  The Prepared Remarks of IRS Commissioner Douglas H. Shulman at the National Press Club (IR-2010-41,
April 5, 2010).
3
  In recent years, the Treasury Inspector General for Tax Administration has investigated roughly 900 threats made
against IRS employees annually. In Fiscal Year 2009, that number climbed above 1,000. In addition, Treasury
Inspector General for Tax Administration Semiannual Report to Congress October 1, 2010–March 31, 2011,
indicated that threats have continued to escalate, with 723 reported for the 6-month period ending March 31, 2011.
Treasury Inspector General for Tax Administration investigations include both threat investigations (a direct,
specific threat of violence) and threat assessment investigations (when groups or individuals may pose a threat to an
IRS employee or facility).
4
  The United States House of Representatives approved a resolution (House Resolution 1127) on March 3, 2010,
acknowledging the incident at the Echelon I building and strongly condemned the terror attack perpetrated
deliberately against Federal employees of the IRS in Austin, Texas.
5
  National Continuity Policy – Homeland Security Presidential Directive-20 (NSPD-51/HSPD-20).
                                                                                                             Page 1
                                 The Internal Revenue Service Adequately
                             Prepared for and Responded to the Austin Incident



Homeland Security, in coordination with its interagency partners, developed Federal Continuity
Directive 1. The purpose of this Federal Continuity Directive is to provide direction for the
development of continuity plans and programs for the Federal Executive Branch. Effective
continuity planning and programs facilitate the performance of critical functions during all
hazards, emergencies, or other situations that may disrupt normal operations.
The IRS had a process in place to guide employees when an emergency incident occurred. The
IRS process included a combination of four integrated plans called the Business Continuity Suite
of Plans. These plans were used to prepare for, respond to, and recover from the incident. The
Suite of Plans included the Occupant Emergency Plan (OEP), the Incident Management Plan
(IMP), the Business Resumption Plan (BRP), and the Disaster Recovery Plan.
    •    The OEP provides procedures for protecting people and property during a crisis situation,
         and its primary focus is the safe evacuation of personnel.
    •    The IMP provides procedures to control and coordinate all activities needed to manage an
         incident throughout the incident response.
    •    The BRP provides procedures for recovering business operations immediately following
         a disaster.
    •    The Disaster Recovery Plan is the information technology plan that includes recovery of
         critical information technology infrastructure, network, hardware, systems, applications,
         and operating systems.6 Our review was limited to addressing how the IRS salvaged the
         data on the computers and the computer replacement.
Incident response is a multifunctional activity at the IRS. When an incident occurs, the local
Senior Commissioner’s Representative (SCR)7 assumes the role of Incident Commander.8 The
rest of the Incident Management Team (IMT) consists of employees from the different business
units at the IRS. When an emergency occurs, it is important to timely resume business
operations because an extended disruption to IRS facilities could affect key processes such as
assessing and collecting taxes, processing tax returns and refunds, and responding to taxpayer
inquiries.


6
  The Disaster Recovery Plan is the written instructions for processing critical applications in the event of a major
hardware or software failure or destruction of facilities. The Disaster Recovery Plan is a support piece, focusing on
the recovery of the systems and data, ensuring that the cyber technology can enable the continuance of the essential
business functions.
7
  The SCRs address time-sensitive administrative issues and direct activities in critical emergency incidents that
affect IRS facilities, provide leadership and direction to Commissioner’s Representatives, and coordinate local
administrative programs, such as flu shots.
8
  The Incident Commander is directly responsible for frontline management of the incident. The Incident
Commander, in conjunction with the other onsite Business Team Managers, will develop and implement response
strategies and utilize Disaster Recovery and BRPs for recovery of business operations.
                                                                                                              Page 2
                            The Internal Revenue Service Adequately
                        Prepared for and Responded to the Austin Incident



When a disaster affects the IRS, the Suite of Plans are executed and are intended to be
continually referenced during the entire incident response and business resumption efforts. Each
function within each IRS building was required to have a BRP. These plans were used to
identify the critical functions at the incident location and the process and resources needed to get
the IRS back to normal operations. In September 2008, the IRS updated its policy and replaced
the BRPs with requirements for continuity plans. We were advised that the IRS started
implementing the continuity planning requirements at the end of Calendar Year 2009 and
continued throughout Calendar Year 2010. During this transitional time, the BRPs were used by
the business units to respond to the Austin incident. We did not review the IRS continuity plans
as they were not in place at the time of the incident. However, we plan to conduct a future
Treasury Inspector General for Tax Administration audit on IRS continuity planning.
The IMP template is an identical template made up of checklists used by the SCRs for all IRS
facilities within their region to ensure continuity. The portion of the IMP that is more
individualized and site-specific is the section of the document that identifies the command and
general staffs of the IMT. When an incident occurs, the IMP identifies the employees
accountable for each responsibility area of the incident response.
This review was performed at the IRS National Headquarters in Washington, D.C., in the office
of Agency-Wide Shared Services during the period March through June 2011. Site visits were
also made to IRS offices in Austin, Texas, and Nashville, Tennessee. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                             Page 3
                                 The Internal Revenue Service Adequately
                             Prepared for and Responded to the Austin Incident




                                       Results of Review

The IRS adequately prepared for and took the necessary actions to evacuate and protect IRS
employees, secure taxpayer data and Federal Government property, and timely resume business
operations following the Austin incident. The IRS provided extensive personnel services to
support employee needs, identified temporary office space for the affected employees, awarded
several procurements to support the recovery effort in an expedited time period, and provided the
furnishings and equipment that facilitated the resumption of work within 18 calendar days of the
incident.
However, our audit determined that emergency planning for the Echelon I building was not
complete, as none of the BRPs for the eight business units located at the Echelon I building
included all of the required elements. In addition, a salvage contract used to recover documents,
including taxpayer data, at the incident site did not include all of the required security provisions
and did not contain an official designation appointing a Contracting Officer’s Technical
Representative (COTR). However, these issues did not have a material impact on the response
to the Austin incident and, taken as a whole, the IRS preparation and response ensured that the
effect of the Austin incident on IRS employees and tax administration was minimized.

The Internal Revenue Service Effectively Prepared for and Responded
to the Austin Incident
Prior to the incident, the IRS prepared for emergency situations at the Echelon I building by
performing drills for the evacuation of employees from the facility and by conducting IMT
exercises that focused on the resumption of business operations subsequent to an emergency
incident.9 The IRS prepared and tested an OEP for the Echelon I building, which facilitated a
prompt evacuation of the building after the incident. The IRS had also developed an IMP for
responding to, recovering from, and mitigating the effects of incidents at the Echelon I building.
Following the incident and building evacuation, the IRS ensured that security of the building was
sufficient to protect taxpayer data and Federal Government property, employees’ needs were
assessed and addressed, new temporary office space was identified, procurement activities were
expedited, and business operations resumed as early as was practical given the severity of the
incident. In addition, IRS executives took actions IRS-wide as a result of the Austin incident.



9
  We determined that the IRS emergency planning included the preparation of the OEP, IMP, and BRP. Our audit
included a review of the completeness of these plans, but we did not test these plans for accuracy. We identified that
the IRS’s BRPs were not complete. See Page 10 of this report for details. However, we did not identify any
material deficiencies within the OEP and IMP documents.
                                                                                                             Page 4
                                The Internal Revenue Service Adequately
                            Prepared for and Responded to the Austin Incident



Additional details on the IRS preparation and response to the Austin incident follow. See
Appendix IV for a timeline of the incident response.

The Echelon I building was promptly evacuated
The IRS reported that there were 198 IRS employees assigned to the Echelon I building and
101 employees were in the building on the day the incident occurred. The building occupants
were able to evacuate to safety within a matter of minutes due to the courageous actions of IRS
onsite personnel, other first responders, and a local citizen.10
Federal law11 mandates the use of OEPs,12 and IRS guidance requires the development of an OEP
as well as annual testing of the plans by performing evacuation drills. Our audit determined that
the IRS had an OEP in place and that the OEP had been tested within 1 year (11 months) prior to
the incident. The OEP for the Echelon I building provided instructions for actions to be taken in
the event of an emergency, the assignments and duties of the Occupant Emergency
Organization,13 and contact information for key members of the emergency response. Our
discussions with local IRS management and review of the incident timeline found that the
Echelon I building was promptly evacuated. Based on witness accounts, the building was
evacuated in approximately 5 minutes. The IRS credited the seriousness that the Echelon I
building employees applied towards the evacuation drills as an important factor in the rapid
building evacuation and in keeping injuries as a result of the incident to a minimum.

The response to the incident was effectively coordinated
In December 2008, the Department of Homeland Security issued the National Incident
Management System, which provides a consistent nationwide template to enable the Federal
Government to prevent, protect against, respond to, recover from, and mitigate the effects of
incidents. While IRS policy does not include any requirements addressing what should be
included in its IMPs, the National Incident Management System contains requirements for
responding to incidents, and the IRS’s IMP we reviewed met those requirements relating to the
IMT command structure and the duties and responsibilities of the team members.
The IRS developed and then adequately implemented the IMP to coordinate its response to the
incident. Our review of the IMP determined that the IRS had an IMP organization chart for the
Echelon I building that identified the IMT responsible for an emergency at that location. We met
with the general staff of the IMT and the Incident Commander and determined that they

10
   A passer-by stopped and used his ladder to rescue six people trapped on the second floor of the Echelon I
building.
11
   41 C.F.R. § 101-20.5, et seq.
12
   The Federal Government has responsibility for minimizing danger to life and property arising from the effects of
fires, bomb threats, bombings, civil disturbances, and other disasters affecting Federal Government employees.
13
   The emergency response organization comprised of employees who have been designated and trained by the
Designated Official to carry out the requirements of the OEP.
                                                                                                            Page 5
                                The Internal Revenue Service Adequately
                            Prepared for and Responded to the Austin Incident



understood their responsibilities when responding to emergency situations. In addition, local
IRS managers affected by the incident had high praise for the IMT and the response as a whole.
Due to the severity of the Austin incident, the Incident Commander made a decision to bring in
two additional SCRs to assume the roles of the Planning Section and Operation Section Chief of
the IMT. This staffed these vital roles with IRS employees who had prior experience in
providing support and direction in emergency response situations. The IMT also documented the
actions they took during the incident through the use of an incident response timeline, minutes of
IMT meetings, and status reports. In our discussions with IRS executives, they expressed that
the level of cooperation within the IRS was an essential aspect in responding to the incident.
They indicated that everyone in the organization worked together, and there was never a concern
for an individual employee’s rank or business unit, which resulted in a highly motivated,
effective, and cohesive team. From a Headquarters perspective, the IMT was fully empowered
to handle the incident response.
When the incident response was complete, the IMT solicited input from key participants
involved with the response and prepared a list of lessons learned. Some of the lessons learned
were used to update the IMP template in preparation for future incidents. The updates covered
issues such as communications with taxpayers, changes to the asset retrieval team within the
IMT command structure, use of a floor plan to identify the location of vital records, and the use
of a single location to address employee needs and other pay and benefit-related issues. In
addition, all SCRs were briefed on the lessons learned from the incident. See Appendix V for a
list of key lessons learned.

Employee needs were identified and addressed
Federal Continuity Directive 1 addresses the unique human capital requirements that are needed
to support an effective emergency response. Agencies must implement a process to
communicate their human capital guidance for emergencies (pay, leave, staffing, and other
human resources flexibilities) to managers and make staff aware of that guidance in an effort to
help agencies continue critical functions during an emergency. The IRS used its personnel
services to provide support to the employees affected by the incident. After the incident, the IRS
placed the affected employees on 2 to 3 weeks of administrative leave, during which time the
IRS made counselors available through its Employee Assistance Program14 and held twice daily
conference calls to brief employees on the incident response and to field any questions or
concerns from affected employees.




14
  The Employee Assistance Program is a free benefit program that provides confidential services to IRS managers,
employees, and their family members. The program provides access to a nationwide counseling network to help
employees deal with a variety of personal and work related problems.
                                                                                                         Page 6
                                The Internal Revenue Service Adequately
                            Prepared for and Responded to the Austin Incident



The IRS also set up a “One-Stop Shop” employee assistance center at the Austin Campus15 and
staffed it with Human and Employee Relations specialists from the IRS Benefits and Services
Team, Employee Assistance Program, and IRS Worker’s Compensation Center. The employee
assistance center had employees onsite to talk with affected employees and provide individual
assistance. Within 4 days of the incident, the IRS prepared and distributed a survey to the
affected employees to determine equipment needs, reasonable accommodation needs, and any
other special needs. The IRS used the results of the surveys as the basis for ensuring that
employees had the tools and resources they needed to return to work.
The assistance center provided packets of information to address various employee issues,
including:
     •   Federal Bureau of Investigation’s Victim Assistance Unit and American Red Cross
         contact information.
     •   IRS Benefits and Services Team information (e.g., retirement benefits, life insurance, and
         health insurance).
     •   IRS Worker’s Compensation Center benefits counseling information and application
         forms for those considering filing a Worker’s Compensation claim.
     •   Social Security Administration contact numbers for those who lost their Social Security
         cards.
     •   Texas Department of Public Safety contact numbers for those who lost their driver’s
         licenses.
As the Echelon I building employees returned to work, the IRS continued to provide the
employees with access to individual counseling to support their recovery from the Austin
incident. The IRS also expanded the number of individual counseling sessions normally
provided as an employee benefit through the Employee Assistance Program.
Additionally, the IRS assisted employees in the recovery of personal items due to the incident,
such as purses, briefcases, office memorabilia, professional certificates, and photos. In addition,
the IRS Office of General Legal Services processed and paid claims under the Military Personnel
and Civilian Employee Compensation Act16 in cases where employees experienced loss or
damage of personal property.




15
   The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
16
   31 U.S.C. § 3721.
                                                                                                          Page 7
                                 The Internal Revenue Service Adequately
                             Prepared for and Responded to the Austin Incident



Taxpayer data and Federal Government property were generally protected
IRS guidance requires the protection of vital resources, facilities, records, and taxpayer data. It
also requires that the IRS follow certain procedures when disposing of computer equipment.
Because of smoke and fire damage, it was necessary for the IRS to replace all of the computers
in the Echelon I building. The IRS took appropriate preventative measures to secure and protect
taxpayer data and Federal Government property following the incident.
After the incident, the Echelon I building was immediately secured by a perimeter fence and
24-hour guard service to prevent access to the taxpayer data still located in the damaged
building. The contractor who performed the salvage work,17 including the removal of the surface
soot and dirt from computers, laptops, CPUs, and personal computers, moved the computers
from the damaged areas to a safe area of the building. At this juncture, IRS Modernization and
Information Technology Services organization representatives took control of the computers,
salvaged data when possible, removed hard drives, and then subsequently disposed of the
damaged computer equipment. Our evaluation of the IRS’s process to recover and dispose of the
data in the damaged computers found that the IRS took the necessary steps to ensure that
taxpayer data were secure during the disposal process.
In addition, the IRS and the vendor properly controlled the damaged paper documents and other
recovered items during the salvage process.18 The vendor placed the damaged items in boxes,
and the boxes were numbered and labeled with the location of the recovery. The box numbers
allowed the IRS to ensure that all of the boxes were returned. We judgmentally selected an
inventory sheet of 40 boxes sent to the contractor and traced these box numbers to the list of
boxes returned to the IRS. We determined that the 40 boxes in the salvage inventory were
returned to the IRS. The location listed on the box label also enabled the IRS to determine which
employee the recovered items belonged to. The IRS set up a secure area at the Austin Campus to
store cleaned items returned by the contractor. The employees were then notified to report to
this area to claim their items.

New office space for affected employees was quickly obtained
The IRS identified interim office space at the Austin Campus for the affected employees and
provided the furnishings and equipment needed to resume work within 18 calendar days of the
incident. We determined the security over the Austin Campus met the Interagency Security
Committee security standards and that the Echelon I building employees were provided adequate
security while at this interim location. The IRS then worked with the General Services
Administration (GSA) to conduct a market survey and identified suitable office space for all


17
   The contractor removed and cleaned paper documents and personal items damaged in the incident. We plan to
conduct a future audit identifying the costs associated with the Austin incident.
18
   This contract did not include all required security provisions and did not contain an official designation appointing
a COTR. See Page 11 of this report for further information.
                                                                                                               Page 8
                                 The Internal Revenue Service Adequately
                             Prepared for and Responded to the Austin Incident



displaced Echelon I building employees. The Echelon I building employees moved into the new
office building within 5 months19 of the Austin incident.
When the 2-year lease for this building was signed on March 30, 2010, the new building met the
Interagency Security Committee security standards in place at that time. Subsequently, on
April 12, 2010, the Department of Homeland Security issued new security standards for Federal
Government facilities. Although the newly leased site does not comply with the more stringent
requirements under the new Interagency Security Committee standards, the IRS is not required to
conform to these new standards as they were not in effect when the lease was finalized. We
were advised by the IRS that it plans to consider these revised security standards when selecting
a permanent office space location when the current lease expires in July 2012.

Additional actions were taken IRS-wide in response to the incident
Our discussions with IRS executives identified other actions taken to address security and
emergency preparedness at a national level. This included but was not limited to:
     •   Increasing the number of security guards at all Taxpayer Assistance Centers20 nationwide
         and to all of the IRS buildings in Austin.
     •   Coordinating with the Department of Homeland Security and the Federal Bureau of
         Investigations to investigate the incident.
     •   Awarding a contract to conduct risk assessments of physical security at all facilities
         across the country that are occupied by IRS employees.
     •   Forming a working group, consisting of senior managers from the Wage and Investment
         and Small Business/Self-Employed Divisions, to examine the execution of the IRS armed
         escort program.
Our discussions with IRS executives also identified lessons learned at the IRS executive level.
This included issues such as:
     •   The critical importance of taking evacuation drills and table-top exercises seriously. IRS
         executives indicated that they are reflecting back on the lessons learned in Austin and
         using the rapid evacuation of the Echelon I building as a learning tool in current
         emergency preparedness and awareness programs in other locations.
     •   Identifying and establishing a network of external sources who offer assistance to trauma
         victims of disasters or emergencies with numerous other Federal and State agencies. For


19
   The IRS moved into the new office space on July 6, 2010, and received the final shipment of recovered
documents on July 28, 2010.
20
   Taxpayer Assistance Centers are a taxpayer’s source for personal tax help when the taxpayer believes his or her
tax issue cannot be handled online or by telephone.
                                                                                                            Page 9
                                  The Internal Revenue Service Adequately
                              Prepared for and Responded to the Austin Incident



         example, the Federal Bureau of Investigation’s Victim Assistance Unit, State of Texas,
         and National Transportation Safety Board all offered and provided IRS employee
         assistance.
     •   Identifying IRS employees nationwide with prior experience in providing direction
         during emergency situations. This was a critical human capital aspect because it
         significantly expedited the IRS response and recovery.

Business Resumption Plans for the Austin Echelon I Building Did Not
Include All the Required Elements
IRS policy states that the objective of the BRP is to resume processing of critical functions as
quickly as possible and eventually the resumption of full, normal operations.21 To achieve this
objective, the business units must identify and include lists in the BRPs of its vital records22 and
critical business processes.23 When planning for an emergency situation, a complete BRP is
necessary for the IMT to prioritize business resumption needs. In a previous audit,24 we reported
that the IRS BRPs were not complete and would not facilitate the efficient recovery of critical
business processes. Our review of the BRPs for the business units located at the Echelon I
building found that none of the eight BRPs included all of the required elements. The missing
information included a list of the vital records of the business unit, the critical functions
performed at the location, and the equipment needed to perform the critical functions.
IRS policy does not identify who is responsible for an independent review of the BRPs. The IRS
informed us it was the responsibility of the business units; however, a review process was not
implemented. For example, in one IRS business unit, the review of the plans was limited to
determining whether all of the information was present and not whether it was accurate. This
IRS business unit was in the process of developing a certification process through which an
executive would certify completeness of the BRPs. However, this process was discontinued as a
result of the IRS’s migration away from BRPs to continuity plans.
Despite the incomplete BRPs, the IMT was able to quickly obtain the missing information from
the business unit representatives on the IMT in responding to the Austin incident, and we did not
identify an adverse effect on the Austin response or subsequent recovery. The IRS’s ability to
timely recover its critical processes in Austin were grounded in its experience in recovering from


21
   Normal operations refers to the broad functions undertaken by an organization when it is assigned responsibility
for a given functional area. These functions include the planning and execution of day-to-day tasks.
22
   Vital records are the records essential to the continued functioning or reconstitution of an organization during and
after an emergency.
23
   Critical business processes are those business processes and functions at the facility that are considered critical to
the ongoing operation of the business unit. These processes and functions should be recovered or resumed first.
24
   Weaknesses in Business Resumption Plans Could Delay Recovery From a Disaster (Reference
Number 2008-20-178, dated September 17, 2008).
                                                                                                                Page 10
                                The Internal Revenue Service Adequately
                            Prepared for and Responded to the Austin Incident



previous disasters and emergency incidents and the foresight it demonstrated by putting the right
people in place without delay who were cognizant of the details and strategies they should follow
after a disaster. Lesser experienced personnel may have found themselves at a disadvantage
without current, complete BRPs. When BRPs do not include all of the required information,
there is an increased risk that the BRPs will not facilitate the efficient recovery of critical
business processes. The IMT members recognized that the BRPs were incomplete and included
this concern as part of their lessons learned document.

Recommendation
Recommendation 1: The Chief, Agency-Wide Shared Services, should ensure that lessons
learned relative to the BRPs are applied to the development of the new continuity plans.
        Management’s Response: The Chief, Agency-Wide Shared Services, agreed with
        our recommendation and stated that the IRS has distributed supplemental guidance on the
        development of continuity plans, initiated annual quality assurance reviews of these
        plans, and plans to apply the lessons learned from the Austin incident in the development
        of the new continuity plans.

Actions Are Needed to Better Facilitate Contract Development and
Administration
On March 3, 2010, the IRS placed a task order against a GSA contract with a vendor for cleanup
and recovery services of sensitive documents and employee personal effects damaged in the
Austin incident. Some of the documents salvaged included taxpayer data. IRS policy states that
procurement solicitations and contracts shall include a clause that requires position risk
designations for contractor employee background investigation or screening for access to IRS
facilities or sensitive taxpayer data. Department of the Treasury Acquisition Regulations also
require contracting officers25 to formally delegate authority to a COTR for all contractual actions
exceeding the simplified acquisition threshold26 of $150,000. This step ensures that COTRs are
fully informed of what they must do and also what they cannot do on a particular contract. It
also protects the Federal Government from the harmful effects of COTRs acting beyond the
scope of their authority or acting without authority, which could lead to unauthorized
commitments and work that is not completed in full compliance with contractual terms and
conditions.


25
   Contracting officers serve as the legal agents of the Federal Government responsible for the integrity of the
contracting process.
26
   Purchases of supplies or services less than $150,000 using simplified procedures described in Federal Acquisition
Regulation Part 13. Simplified acquisitions include purchase card buys, purchase orders, electronic purchasing, task
and delivery orders against established contracts, imprest fund buys, and blanket purchase agreements.
                                                                                                           Page 11
                            The Internal Revenue Service Adequately
                        Prepared for and Responded to the Austin Incident



The COTR is also responsible for designating and documenting the risk level of each position
within the contract. Additionally, the policy requires that IRS personnel determine whether
sensitive taxpayer data to which contractor personnel require access warrants execution of a
nondisclosure agreement. For these situations, the IRS uses a standard nondisclosure agreement
for its procurements.
Our review of the document salvage contract identified several concerns. These include:
   •   The contract did not include a security assessment addressing whether or not background
       checks of the contract workers were necessary.
   •   The contract did not include a requirement for the contractor employees to sign a form
       addressing the nondisclosure of taxpayer data and the penalties for inappropriate
       disclosure. While the contract employees signed nondisclosure statements for grand jury
       materials, this does not address nondisclosure of taxpayer data nor does it address the
       penalties for disclosure of taxpayer data. One of the purposes of having employees sign
       the form is to make sure that they are aware of the penalties for inappropriate disclosure
       of taxpayer data.
   •   The contract file did not contain an official designation formally appointing a COTR.
As is often the case in attempting to award procurements in an emergency environment, the
urgency of the situation and short time periods resulted in contractual errors. However, we
found no evidence that the sensitive taxpayer data that were the subject of the salvage operation
were treated improperly by the contractors. The IRS believed that the contract provisions for
officially appointing a COTR and the nondisclosure of taxpayer data were overlooked because of
the emergency conditions that were present at the time of the contract award. In addition, the
IRS believes that the provision for background checks of the contractor personnel was not
included in the contract because they did not have the time to conduct the investigations due to
the urgent nature of the contract. The IRS requested an expedited awarding of the contract
because the Echelon I building’s windows were blown out and the contents of the building were
exposed to weather conditions. As a result, the IRS Office of Procurement completed the
procurement action in a very short period of time in an effort to support the Austin recovery
efforts. In addition, the IRS believed that the contractor’s employees may have had the required
background checks because of prior reclamation work they had performed for other Federal
Government agencies.
While we are not aware of any instances of contractor employees disclosing taxpayer data, the
failure to have contractor employees sign the correct nondisclosure form may make it more
likely that the employees may disclose taxpayer data because they may not have an
understanding of its sensitivity. The lack of the required security provisions (i.e., a security
assessment for the contractor and the background investigations for contractor employees) and
proper contract administration (i.e., the failure to appoint a COTR to oversee these requirements
and obtain the proper nondisclosure statements) were not included as part of the incident
                                                                                          Page 12
                           The Internal Revenue Service Adequately
                       Prepared for and Responded to the Austin Incident



response lessons learned document. The lessons learned document and the IMP template should
be updated to include the security and administration aspects of emergency procurements to
guide the future IMTs.

Recommendation
Recommendation 2: The Chief, Agency-Wide Shared Services, should ensure that the
lessons learned document and the IMP template are updated to reflect the required provisions
that emergency procurements include compliance with the Federal Acquisition Regulation and
other applicable procurement procedures and policies, including required security provisions.
       Management’s Response: The Chief, Agency-Wide Shared Services, agreed with
       our recommendation and stated that the IRS will update the lessons learned document
       and the IMP template to reflect that emergency procurements must include the required
       provisions to be in compliance with the Federal Acquisition Regulation and other
       applicable procurement procedures and policies, including all required security
       provisions.




                                                                                        Page 13
                                The Internal Revenue Service Adequately
                            Prepared for and Responded to the Austin Incident



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the IRS was adequately prepared for and took
the necessary actions to protect IRS employees, taxpayer data, and Federal Government property
and to resume business operations following the airplane crash into the Austin, Texas,1 Echelon I
building. To accomplish this objective, we:
I.      Determined whether the IRS took adequate preventative measures to protect IRS
        employees and whether IRS employees were adequately supported following the
        incident.
        A. Obtained the OEP for the Echelon I building to determine whether it helped the IRS
           and its employees prepare for an evacuation of the building.
        B. Determined whether IRS employees were evacuated from the premises to the
           designated evacuation location and accounted for within a reasonable time following
           the incident.
        C. Evaluated the personnel services that were provided to the employees after the
           incident and determined whether the IRS adequately supported the employees in
           dealing with the incident and with returning to work.
        D. Reviewed the physical security and emergency preparedness risk/vulnerability
           assessments and evaluated the security at the Echelon I building, Austin Campus,2
           and Research Park Plaza IV building.
II.     Determined whether the IRS took adequate preventative measures to secure the Echelon I
        building and protect taxpayer data and Federal Government property following the
        incident.
        A. Identified the Internal Revenue Manual requirements for the protection of Federal
           Government property and assets, taxpayer data, and other sensitive information,
           including the security of the building and contractors with access to taxpayer records
           and computer data and storage equipment.




1
 All references to Austin in this report refer to Austin, Texas.
2
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 14
                           The Internal Revenue Service Adequately
                       Prepared for and Responded to the Austin Incident



       B. Identified measures used to limit access to the building to ensure that taxpayer data
          and other sensitive information in the Echelon I building following the incident were
          secured and protected from unauthorized disclosure.
       C. Identified measures used to protect taxpayer records and computer data and storage
          equipment during cleanup efforts.
III.   Determined whether the IRS complied with Interagency Security Committee standards
       for the protection of employees, property, and taxpayer data at the temporary work
       location (Austin Campus) and at the new Austin site.
       A. Determined whether the IRS complied with Interagency Security Committee
          standards for the protection of former Echelon I building employees housed in
          temporary space at the Austin Campus.
       B. Determined whether the IRS complied with Interagency Security Committee
          standards at the new Austin site.
IV.    Determined whether the IRS had previously developed and then adequately implemented
       the IMP to coordinate its response to the incident.
       A. Obtained the IMP for the Echelon I building and determined whether the contents of
          the plan were current and included all of the items contained in the IMP template.
       B. Reviewed the actions of the IMT and determined whether the team provided an
          effective response to the incident.
V.     Determined whether the IMT and the execution of the BRPs operated as intended in
       recovering from the incident.
       A. Determined the timeline for the incident response and the business resumption efforts
          to resume normal IRS business operations.
       B. Determined whether the BRPs were sufficient to ensure the IRS could recover from
          the incident.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and controls
used in planning for and implementing emergency response plans and responding to emergency
situations. We evaluated these internal controls by: 1) interviewing management and other
employees involved in the response, 2) reviewing documentation maintained by people involved


                                                                                        Page 15
                            The Internal Revenue Service Adequately
                        Prepared for and Responded to the Austin Incident



in the response, and 3) making firsthand observations of physical security measures at the Austin
Campus and Research Park Plaza IV building.




                                                                                         Page 16
                          The Internal Revenue Service Adequately
                      Prepared for and Responded to the Austin Incident



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Darryl J. Roth, Audit Manager
David P. Robben, Lead Auditor
Chinita M. Coates, Auditor
Brett C. Thornock, Audit Evaluator




                                                                                  Page 17
                          The Internal Revenue Service Adequately
                      Prepared for and Responded to the Austin Incident



                                                                           Appendix III

                         Report Distribution List

Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Acting Commissioner, Tax Exempt and Government Entities Division SE:T
Chief Technology Officer OS:CTO
Director, Employee Support Services OS:A:ESS
Director, Physical Security and Emergency Preparedness, Agency-Wide Shared Services
OS:A:PSEP
Director, Procurement OS:A:P
Director, Real Estate and Facilities Management, Agency-Wide Shared Services OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Physical Security and Emergency Preparedness, Agency-Wide Shared Services
       OS:A:PSEP
       Director, Procurement OS:A:P
       Director, Real Estate and Facilities Management, Agency-Wide Shared Services
       OS:A:RE




                                                                                   Page 18
                                The Internal Revenue Service Adequately
                            Prepared for and Responded to the Austin Incident



                                                                                             Appendix IV

                        Timeline of Incident Response

February 18, 2010         At 9:40 a.m. a single-engine airplane crashed into the Austin1 Echelon I
                          building in Austin, Texas.
                          The Commissioner’s Representative for the building reported shortly after
                          exiting the building that to his knowledge everyone in the building
                          evacuated safely except one individual, a Small Business/Self-Employed
                          Division manager.
                          By 1:00 p.m., the IRS confirmed that one employee was missing.
                          By 5:00 p.m., the Incident Commander arrived from Dallas, Texas, and
                          took control of the scene from the Administrative Officer who was acting
                          as the interim Incident Commander.
                          Shortly after 10:00 p.m., the Incident Commander sent an email advising
                          that the IRS Commissioner had placed all Echelon I building employees
                          on administrative leave and authorized employees with an Austin post of
                          duty the use of liberal leave.
February 19, 2010         The Emergency Operation Center was opened at the Austin Campus and
                          the members of the IMT began meeting.
                          The first of the twice daily conference calls with the Echelon I building
                          employees began.
February 20, 2010         The Incident Commander asked two additional SCRs to join the IMT as
                          Operations and Planning Section Chiefs.
                          The IMT developed an assessment form for the Echelon I building
                          employees to identify their needs.
February 22, 2010         A “One-Stop Shop” was set up at the Austin Campus. The One-Stop Shop
                          was staffed with Human and Employee Relations specialists from the IRS
                          Benefits and Services Team, Employee Assistance Program,2 and IRS
                          Worker’s Compensation Center. Assistance packets were given to each

1
 All references to Austin in this report refer to Austin, Texas.
2
 The Employee Assistance Program is a free benefit program that provides confidential services to IRS managers,
employees, and their family members. The program provides access to a nationwide counseling network to help
employees deal with a variety of personal and work-related problems.
                                                                                                        Page 19
                                   The Internal Revenue Service Adequately
                               Prepared for and Responded to the Austin Incident



                             Echelon I building employee and included a survey requesting employee
                             needs.
February 22, 2010            The Secretary of the Treasury and IRS Commissioner met privately with
                             Echelon I building employees.
February 23, 2010            The IRS initiated the procurement process to select a vendor for asset
                             recovery.
February 24, 2010            GSA and IRS Real Estate and Facilities Management employees began a
                             market survey to identify sites for a new office building where temporary
                             space could be leased for the Echelon I building employees.
February 26, 2010            The potential recovery/restoration contractor received necessary
                             clearances to enter the building to determine projected cost estimates for
                             document recovery and restoration.
                             The IRS identified workstations at the Austin Campus for interim
                             placement of the Echelon I building employees until a new office space
                             could be leased.
March 3, 2010                The IRS selected the Research Park Plaza IV building as the temporary
                             (18-24 month lease) office location to replace the Echelon I building.
                             The IRS began deploying laptops to the Echelon I building employees.
                             All laptops were scheduled to be deployed by March 5, 2010.
March 8, 2010                Echelon I building employees returned to work.
March 11, 2010               The Incident Commander moved the Emergency Operation Center to
                             Dallas, Texas, from which the Incident Commander and staff monitored
                             the incident.
                             The document salvage contract was awarded and asset recovery began the
                             following day.
June 2, 2010                 The contractor delivered the first shipment of salvaged documents.3
July 6, 2010                 All Echelon I building employees were successfully moved into the new
                             offices at Research Park Plaza IV building in Austin.
July 28, 2010                The IRS received the final shipment of documents from the document
                             salvage contractor.




3
    This includes sensitive documents and personal effects damaged in the Austin incident.
                                                                                                 Page 20
                                The Internal Revenue Service Adequately
                            Prepared for and Responded to the Austin Incident



                                                                                              Appendix V

    Key Lessons Learned From the Incident Response

The IMT solicited lessons learned from key participants involved with the response and prepared
a list of lessons learned. This list included positive lessons learned and areas that can be
improved. We also discussed lessons learned with key participants and IRS executives. We
reviewed the list and identified the key lessons learned that the IRS documented.

Lessons Learned – Positive
    •   Evacuation of the Echelon I Building proceeded as outlined in the OEP, as practiced
        through drills, and was completed within minutes of the attack. The IRS credited the
        seriousness that the Echelon I building employees applied towards the evacuation drills
        as an important factor in the rapid building evacuation.
    •   The Incident Commander made a decision to bring in two additional SCRs to assume the
        roles of the Planning Section and Operation Section Chiefs of the IMT. This meant that
        these vital roles were staffed with IRS employees who had prior experience in providing
        support and direction in emergency response situations.
    •   An Employee Information Sheet was created and used to quickly capture Echelon I
        building employee needs (e.g., equipment needs, reasonable accommodation needs, and
        other special needs). Surveys of the Echelon I building employees facilitated the
        provision of the tools and resources employees needed to return to work.
    •   Established a Damage Assessment Retrieval Team that directly reported to the Incident
        Commander, instead of through the Operations Section Chief. Due to the severity of the
        incident, separating this section proved valuable, allowing the Incident Commander to be
        fully informed.
    •   The availability of office space at the Austin, Texas,1 Campus2 as well as the extensive
        support from the Austin Campus Director and Site Coordinator were valuable resources
        for the IMT.
    •   Twice daily conference calls were initiated with the Echelon I building employees to
        keep the employees up to date on the status of the incident response.



1
 All references to Austin in this report refer to Austin, Texas.
2
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 21
                                 The Internal Revenue Service Adequately
                             Prepared for and Responded to the Austin Incident



    •    A network of external sources was identified and established with numerous other
         Federal and State agencies who offer assistance to trauma victims of disasters or
         emergencies. For example, the Federal Bureau of Investigation’s Victim Assistance Unit,
         the State of Texas, and the National Transportation Safety Board all offered and provided
         IRS employee assistance. This also assisted the IRS in obtaining a list of retrieval and
         restoration contractors and expedited the issuance of a contract.
    •    “One-Stop Shop” service was provided to Echelon I building employees. Specialists
         were onsite at the Austin Campus for the following areas: counseling services,
         workmen’s compensation claims,3 personal property claims, Social Security card
         replacement, and the Federal Bureau of Investigation’s Victims Assistance Unit. An
         employee packet of these pertinent materials and forms was issued or mailed to every
         affected employee.
    •    IRS employees nationwide with prior experience in providing direction during
         emergency situations were identified. This was a critical human capital aspect because it
         significantly expedited the IRS response and recovery.
    •    The emotion and sensitivity of this type of event, and the sense of personal loss, were
         acknowledged and recognition of the fact that the IRS could not return immediately to
         “business as usual” was affirmed.

Lessons Learned – Areas That Can Be Improved
    •    The sign-in log for the Echelon I building was limited to taxpayers. IRS employees and
         contract employees/vendors assigned to other buildings were not required to sign in when
         visiting the Echelon I building; therefore, there was no way to determine who else was in
         the building at the time of the incident.
    •    Some Echelon I building employees left the premises, which made it difficult to
         determine which employees were in the building at the time of the event.
    •    An override is needed for door codes in the event of an emergency. Floor wardens were
         unable to see the door codes due to the smoke.
    •    Policies enacted due to emergency situations that affect taxpayer accounts must be timely
         communicated with taxpayers for effective tax administration.
    •    Communications need to be issued periodically stressing the importance of sending
         records to the archive or disposing of records when no longer needed. The number of

3
 The Federal Employees’ Compensation Act, under the authority of United States Code (5 U.S.C. § 8101
et. seq.) and the Code of Federal Regulations (20 C.F.R. Parts 1 and 10), provides compensation benefits to
civilian employees of the United States for disability due to personal injury or disease sustained while in the
performance of duty.
                                                                                                              Page 22
                         The Internal Revenue Service Adequately
                     Prepared for and Responded to the Austin Incident



    documents that needed to be recovered may have been unnecessarily increased due to
    documents that could have been archived or disposed of earlier.
•   Define, develop, and deliver training to the IRS business units so they have a better
    understanding of vital records.
•   A policy library needs to be established to keep all policies enacted as a result of the
    incident for future IMT reference.
•   IRS employees need to understand their liability if personal property in the workplace is
    destroyed.
•   Business continuity plans need to be updated based on actions taken by the IMT to
    reestablish the critical functions affected by the Austin incident.
•   Managers and employees have a lot of work-related information on their computers. It
    would ease future business resumptions if there was a continual backup of this
    information.




                                                                                         Page 23
            The Internal Revenue Service Adequately
        Prepared for and Responded to the Austin Incident



                                                   Appendix VI

Management’s Response to the Draft Report




                                                            Page 24
    The Internal Revenue Service Adequately
Prepared for and Responded to the Austin Incident




                                                    Page 25
    The Internal Revenue Service Adequately
Prepared for and Responded to the Austin Incident




                                                    Page 26
